No. 20-883

In the Supreme Court of the United States
__________

DONALD J. TRUMP, PETITIONER
v.
WISCONSIN ELECTIONS COMMISSION, ET AL.,
RESPONDENTS
__________
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

__________

SUPPLEMENTAL BRIEF OF PETITIONER
PURSUANT TO SUPREME COURT RULE 15.8
__________
WILLIAM BOCK, III
Counsel of Record
JAMES A. KNAUER
KEVIN D. KOONS
Kroger, Gardis & Regas, LLP
111 Monument Circle
Suite 900
Indianapolis, IN 46204
(317) 692-9000
wbock@kgrlaw.com
Counsel for Petitioner

INTRODUCTION
Supreme Court Rule 15.8 provides: “any party may
file a supplemental brief at any time while a petition
for writ of certiorari is pending, calling attention to . . .
[any] intervening matter not available at the time of
the party’s last filing.” After Petitioner’s December 30,
2020, filing the U.S. Congress accepted electoral votes
for President of the United States from the State of
Wisconsin for President Joseph R. Biden, and President Biden was sworn in as the forty-sixth President
of the United States. These intervening events have
mooted aspects of the relief initially sought by Petitioner. At the same time, key issues are not moot
based on the “capable of repetition yet evading review”
doctrine.
Had any Respondent submitted a brief in opposition, Petitioner would have addressed the issue of
mootness in Petitioner’s reply. As no response briefs
were filed, Petitioner addresses these intervening
matters pursuant to Rule 15.8.
DISCUSSION
This Court has frequently applied the exception to
mootness known as “capable of repetition yet evading
review,” to reach the merits of election disputes. See,
e.g., Fed. Election Comm’n v. Wisconsin Right To Life,
Inc., 551 U.S. 449, 463 (2007) (recognizing the propriety of applying the exception in the context of election
cases) (citing Storer v. Brown, 415 U.S. 724, 737, n. 8
(1974)); Morse v. Republican Party of Virginia, 517
U.S. 186, 235 n.48 (1996) (applying exception to challenge to registration fees required to attend political
party’s state convention as a delegate); Norman v.
Reed, 502 U.S. 279, 288 (1992) (applying exception to
access to ballot challenge); Anderson v. Celebrezze,

2
460 U.S. 780, 784 n.3 (1983) (applying exception to
presidential candidate’s challenge to Ohio’s early filing deadline for independent candidates); Brown v.
Chote, 411 U.S. 452, 457 n.4 (1973) (applying “evading
review” doctrine to candidate’s challenge to validity of
candidate filing fees); Rosario v. Rockefeller, 410 U.S.
752, 756 n.5 (1973) (applying exception to challenge to
political party enrollment requirements as condition
to voting in primaries); Dunn v. Blumstein, 405 U.S.
330, 332 n.2 (1972) (applying exception to voter’s challenge to durational residence requirements for voting);
Moore v. Ogilvie, 394 U.S. 814, 816 (1969) (applying
exception to challenge to number of signatures required on nominating petitions for new political parties).
“The exception applies where ‘(1) the challenged
action is in its duration too short to be fully litigated
prior to cessation or expiration, and (2) there is a reasonable expectation that the same complaining party
will be subject to the same action again.’” Fed. Election Comm’n, 551 U.S. at 462 (quoting Spencer v.
Kemna, 523 U.S. 1, 17 (1998)).
First, the “capable of repetition” doctrine is particularly important in the context of a presidential election which affords only an extremely compressed time
frame in which post-election litigation may be completed. For instance, here the complaint was filed on
December 2, 2020, a merits hearing was held on December 10, and final judgment was rendered December 14. The Seventh Circuit issued its decision December 24, and the petition was filed with this Court on
December 30.

3
Of course, presidential elections are conducted on
the first Tuesday after the first Monday in November. 1 By statute Congress counts the electoral votes
on January 6 2 and the Constitution requires the new
President be inaugurated by January 20 at noon. 3
Therefore, cases initiated in the period after a presidential election present the epitome of an action for
which the duration is too short to be fully litigated
prior to expiration of the relevant period, in this case
the consideration of electors by Congress and the inauguration of the new president.
The narrow window in which legal disputes may
be resolved following a presidential election weighs
heavily in favor of applying the “capable of repetition”
doctrine to resolve issues capable of reoccurring. Otherwise, non-legislative state actors may be emboldened in future presidential elections to make even
more last-minute changes to state election laws contrary to the Electors Clause than occurred in this
year’s election.
Second, Petitioner clearly satisfies the element
that there is a reasonable expectation he may in the
future be subject to the same action. There is no legal
impediment to him running for re-election. 4 National
media and political pundits have highlighted Petitioner as a potential presidential candidate in 2024
and report that he would be the GOP frontrunner
should he run again. This reporting is objectively
1

3 U.S.C. § 1.

2

3 U.S.C. § 15.

3

U.S. CONST., Amendment XII.

4

U.S. CONST., Amendment XXII.

4
based upon polling data and Petitioner’s access to the
financial resources needed to run. 5 Therefore, Petitioner easily satisfies the second element of the capable of repetition standard.
Significantly, his petition raises important issues
capable of repetition which could be critical in a subsequent presidential election. Petitioner has raised
the inherent conflict between this Court’s guidance in
Purcell v. Gonzalez, 549 U.S.1 (2006), instructing that
federal courts not intervene in ongoing elections (and
interpreted by federal courts to apply at the point in
an election in which absentee ballots have been
mailed or their mailing is imminent), and the doctrine
of laches frequently applied by courts in this election
cycle (including by the Seventh Circuit in this case) to
find that a post-election challenge to conduct occurring during or immediately before the Purcell window

See, e.g., “Inauguration Day isn’t the end of the
Trump era. It’s just the beginning.” USA Today, January
17, 2021 (“President Donald Trump would enjoy an almostcertain early favorite status in an open 2024 Republican
https://www.usatoprimary”),
available
at:
day.com/story/news/politics/2021/01/17/paleologos-polltrump-era-just-getting-started/4196345001/; “It’s still
Trump’s party,” Axios, January 14, 2020 (“57% of Republicans said Trump should be the 2024 GOP candidate . . .
[t]hat’s a formidable base for Trump, who also controls the
$150 million+ he has raised for his super PAC since the
election”) available at: https://www.axios.com/trump-republicans-impeachment-support-10c11b10-2149-406fab6a-4a94db8d1226.html.
5

5
(i.e., the period between the imminent mailing of ballots and election day) is untimely. See Petition for Certiorari (Pet. Cert.) at 36-39. Application of laches in
the circumstances of this case also conflicts with the
Electors Clause, Article II, § 1, cl. 2 of the United
States Constitution, because a judge-made equitable
doctrine should not control when important public
rights are at stake. The application of laches further
places an intolerable burden upon exercise of the First
Amendment right to run for public office. Id. at 36.
These issues pertaining to laches, the Electors Clause,
the First Amendment, and Purcell are likely to recur
in future cases.
Also, the Seventh Circuit entered a decision in conflict with this Court’s decisions in Bush v. Gore, 531
U.S. 98 (2000); Bush v. Palm Beach Cty. Canvassing
Bd., 531 U.S. 70 (2000); and McPherson v. Blacker,
146 U.S. 1 (1892), in which this Court confirmed the
Electors Clause was intended by the Framers to preserve the plenary and exclusive authority of the state
legislatures to establish the manner in which presidential electors are chosen. See Pet. Cert. at 3-6. The
Seventh Circuit’s statement that Article II may be interpreted (as the District Court in this case interpreted it) to have been satisfied merely by conducting
the presidential election by popular vote, even if the
state legislature’s directives concerning how the election was to be conducted were not followed, may cause
confusion in future elections. It is also in conflict with
the Eighth Circuit’s recent decision in Carson v. Simon, 978 F.3d 1051 (8th Cir. 2020). See Pet. Cert. at
23-25. This is another issue likely to recur.
Re-affirmation of the principle that the Electors
Clause vests exclusive authority in the state legisla-

6
tures to set the rules – not just the means for appointing electors -- for presidential elections is not only evidently important to future elections based on this
case, but, in addition, there were numerous other
cases during this election cycle in which this constitutional principle appears not to have been fully understood and/or respected by non-legislative state actors.
See, e.g., Republican Party v. Boockvar, 141 S. Ct. 1, 2
(2000) (Statement of Alito, J. joined by Thomas and
Gorsuch JJ) (“[T]he constitutionality of the [Pennsylvania] Supreme Court’s decision [extending the statutory date for receipt of mail-in ballots beyond Election Day] . . . has national importance, and there is a
strong likelihood that the State Supreme Court decision violates the Federal Constitution.”); Carson 978
F.3d at 1059-1060 (“Secretary’s actions in altering the
deadline for mail-in ballots likely violates the Electors
Clause”); Moore v. Circosta, 2020 WL 6063332, *7
(M.D.N.C. 2020) (state’s election administrator “contravene[d] the duly enacted laws of the [Legislature]
and . . . permit[ted] ballots to be counted that do not
satisfy the fixed rules or procedures the state legislature has deemed necessary to prevent illegal voting”). 6
The foregoing issues are likely to recur in future
presidential elections. To avoid confusion resulting
from the erroneous decisions below and prevent need
for re-litigation of these issues the “capable of repetition” exception should be applied.

Each of the identified cases were cited in the Petition,
although the complete citation to the Moore case was inadvertently left out.
6

7
Respectfully submitted,
WILLIAM BOCK, III
Counsel of Record
Kroger, Gardis & Regas, LLP
111 Monument Circle
Suite 900
Indianapolis, IN 46204
(317) 692-9000
wbock@kgrlaw.com

JAMES A. KNAUER
KEVIN D. KOONS
Kroger, Gardis & Regas, LLP
111 Monument Circle
Suite 900
Indianapolis, IN 46204
(317) 692-9000

Counsel for Petitioner

